       4r
            v                   Closeout of M91010002
This   is       a   case   of    alleued   ~laaiarism involvinu Princioal
                                                                        --
                                                                         L-

                                          (thesubject) of the ukversitv
                                                               f-
                                      1 the subiect ' s wro~osal




                                              (the complainant) of   4
that several sentences in the
taken from his recent book,
without proper quotes or refer
On                       OIG wrote to the subject and asked for an
explanation regarding the plagiarism
                            -  -       that had allegedly occurred on
two of the pages of <he proposal. In an undated reply; the subject
admitted to using the sentences due to llsloppinessn  but denied that
he was guilty of miscon
guidelinesn.      On       a        defined       part 689 of [ N S F ]
                                      OIG wrote to the subject and
explained that according to the NSF misconduct regulation (45 CFR
part 689) , the use of someone else1s material without proper quotes
and/or references, as he did, was plagiarism even if it only
appeared in the background section of his proposal to a limited
extent. OIG proposed to the subject to rectify this situation by
1) correcting the introductory section ofhis     ro osal using source
citations for the quoted passages from e      b    o    o    k sending
                                                                  ~
these corrections to the N S F cognizant
                                      -         program   officer   for
inclusion in the subject's proposal, and 3 ) sending a copy of the
same to OIG. However, the subject reswonded that he was currently
                  revised appli6ationn Eor resubmission of proposai
                 to N S F . He would include in it a sentence
                 the improper quotation of material in the original

       the subject's response was unsatisfactory,
      OIG urged him to make the corrections as he
           and forward the corrections to N S F to be included in the
file of his ~ r o ~ o s a l When
                            .    the corrections were forwarded to N S F ,
OIG noticed that on one of the pages the subject ha
the materials without using proper reference.
      OIG pointed this out to .the subject who re
                 and sent the corrected -page  -  to the N S F cognizant
program officer with a copy to OIG.
The subject has acknowledged that he has made errors in his
proposal by quoting materials without proper citations. He has
promised in writing that he will "not ever be so careless again in
the future1!. Also, it appears to be a minor case of plagiarism
since the copied passages were in the introductory section of the

                                      3%'%~
                                      Ci/-n?
proposal and not in the main body of the proposal. Hence, this
case can now be closed with a strong letter to the subject urging
adherence to the standard practice of citation when using the words
of others. The complainant will be notified that the case is being
closed.

                                                       w-
CC:   Inspector General (IG)
      Assistant IG for Oversight




                    23 an-
